$XJXVW  

.(,7+ 675$1*(
9,&( 35(6,'(17 385&+$6,1* $1' 0$7(5,$/6

68%-(&7 $XGLW 5HSRUW  &RQVXOWLQJ DQG $XGLW 6HUYLFHV
         &RQWUDFWV 5HSRUW 1XPEHU &$$5

7KLV UHSRUW SUHVHQWV WKH UHVXOWV RI RXU DXGLW RI FRQVXOWLQJ DQG DXGLW VHUYLFHV FRQWUDFWV
3URMHFW 1XPEHU 5$&$ 7KH DXGLW ZDV VHOILQLWLDWHG 2XU REMHFWLYHV ZHUH
 WR GHWHUPLQH ZKHWKHU WKH 3RVWDO 6HUYLFH UHGXFHG LWV UHOLDQFH RQ FRQWUDFWHG VHUYLFHV
DQG  VWRSSHG FRQWUDFWLQJ IRU DXGLW VHUYLFHV

7KH DXGLW UHYHDOHG WKDW WKH 3RVWDO 6HUYLFH VLJQLILFDQWO\ UHGXFHG UHOLDQFH RQ VHUYLFH
FRQWUDFWV DQG VWRSSHG FRQWUDFWLQJ IRU DXGLW VHUYLFHV +RZHYHU ZH QRWHG WKDW DV WKH
3RVWDO 6HUYLFH SUHSDUHV WR UHGXFH LWV ZRUNIRUFH LW ZLOO UHTXLUH D VWURQJ V\VWHP RI FRQWURO
WR SUHYHQW D UHFXUUHQFH RI RYHUUHOLDQFH RQ FRQWUDFW VXSSRUW :H PDGH RQH
UHFRPPHQGDWLRQ WR DGGUHVV WKLV LVVXH

0DQDJHPHQW DJUHHG ZLWK RXU UHFRPPHQGDWLRQ DQG LV FXUUHQWO\ UHYLVLQJ DSSOLFDEOH
SROLFLHV DQG SURFHGXUHV 7KH 2IILFH RI WKH ,QVSHFWRU *HQHUDO 2,* FRQVLGHUV WKH
UHFRPPHQGDWLRQ VLJQLILFDQW DQG WKHUHIRUH UHTXLUHV 2,* FRQFXUUHQFH EHIRUH FORVXUH
&RQVHTXHQWO\ WKH 2,* UHTXHVWV ZULWWHQ FRQILUPDWLRQ ZKHQ FRUUHFWLYH DFWLRQ LV
FRPSOHWHG 7KH UHFRPPHQGDWLRQ VKRXOG QRW EH FORVHG LQ WKH IROORZXS WUDFNLQJ V\VWHP
XQWLO WKH 2,* SURYLGHV ZULWWHQ FRQILUPDWLRQ WKDW WKH UHFRPPHQGDWLRQ FDQ EH FORVHG
0DQDJHPHQW¶V FRPPHQWV DQG RXU HYDOXDWLRQ RI WKHVH FRPPHQWV DUH LQFOXGHG LQ WKH
UHSRUW

:H DSSUHFLDWH WKH FRRSHUDWLRQ DQG FRXUWHVLHV SURYLGHG E\ \RXU VWDII GXULQJ WKH DXGLW ,I
\RX KDYH DQ\ TXHVWLRQV RU QHHG DGGLWLRQDO LQIRUPDWLRQ SOHDVH FRQWDFW .LP 6WURXG
GLUHFWRU &RQWUDFWV DW   RU PH DW  



%LOO\ 6DXOV
$VVLVWDQW ,QVSHFWRU *HQHUDO
 IRU %XVLQHVV 3URWHFWLRQ

$WWDFKPHQW
FF 5LFKDUG - 6WUDVVHU -U
    -RKQ 5 *XQQHOV
&RQVXOWLQJ DQG $XGLW                                     &$$5
 6HUYLFHV &RQWUDFWV


                           7$%/( 2) &217(176
([HFXWLYH 6XPPDU\                                            L

3DUW ,

,QWURGXFWLRQ                                                

   %DFNJURXQG                                               
   2EMHFWLYHV 6FRSH DQG 0HWKRGRORJ\                       
   3ULRU $XGLW &RYHUDJH                                     

3DUW ,,

$XGLW 5HVXOWV                                               

   6HUYLFH &RQWUDFWV                                        
      6HUYLFH &RQWUDFW 5HGXFWLRQ                            
      :RUNIRUFH &XWEDFNV                                    
   5HFRPPHQGDWLRQ                                           
   0DQDJHPHQW¶V &RPPHQWV                                    
   (YDOXDWLRQ RI 0DQDJHPHQW¶V &RPPHQWV                      

   $XGLW 6HUYLFHV                                           

$SSHQGL[ 0DQDJHPHQW¶V &RPPHQWV                             




                                5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                     &$$5
 6HUYLFHV &RQWUDFWV


                         (;(&87,9( 6800$5<
 ,QWURGXFWLRQ          ,Q  WKH 3RVWDO 6HUYLFH UHVWUXFWXUHG DQG VLJQLILFDQWO\
                       UHGXFHG RUJDQL]DWLRQDO VWDIILQJ OHYHOV $V D UHVXOW PDQ\
                       RQJRLQJ SURMHFWV ZHUH XQGHUVWDIIHG DQG WKH 3RVWDO 6HUYLFH
                       ZDV UHTXLUHG WR REWDLQ SHUVRQQHO XQGHU FRQWUDFW WR FRPSOHWH
                       XQILQLVKHG ZRUN 7KHVH FRQWUDFWHG VHUYLFHV LQFOXGHG
                       FRPSXWHU VXSSRUW FOHULFDO VXSSRUW FRQWUDFWLQJ VXSSRUW
                       FRQVXOWLQJ DQG SURIHVVLRQDO VHUYLFHV

                       ,Q 0DUFK  WKH SRVWPDVWHU JHQHUDO EHFDPH FRQFHUQHG
                       DERXW WKH JURZLQJ UHOLDQFH RQ FRQWUDFWRUV WR VXSSOHPHQW WKH
                       ZRUNIRUFH DQG HVWDEOLVKHG WKH &RQVXOWLQJ 6HUYLFHV 5HYLHZ
                       &RPPLWWHH WR HQVXUH DOO VHUYLFH FRQWUDFWV ZHUH QHFHVVDU\
                       ,Q $SULO  WKH %RDUG RI *RYHUQRUV PDGH WKH 2IILFH RI
                       ,QVSHFWRU *HQHUDO 2,* UHVSRQVLEOH IRU DOO 3RVWDO 6HUYLFH
                       DXGLWV DV UHTXLUHG E\ WKH ,QVSHFWRU *HQHUDO $FW
                       &RQVHTXHQWO\ 3RVWDO 6HUYLFH DXGLWLQJ FRQWUDFWV ZHUH QR
                       ORQJHU DSSURSULDWH

                       7KH REMHFWLYHV RI RXU DXGLW ZHUH WR GHWHUPLQH ZKHWKHU WKH
                       3RVWDO 6HUYLFH  UHGXFHG LWV UHOLDQFH RQ FRQWUDFWHG
                       VHUYLFHV DQG  VWRSSHG FRQWUDFWLQJ IRU 3RVWDO 6HUYLFH
                       DXGLWV

 5HVXOWV LQ %ULHI      2XU DXGLW UHYHDOHG WKDW IURP 0DUFK  XQWLO 0DUFK 
                       WKH 3RVWDO 6HUYLFH VXFFHVVIXOO\ UHGXFHG VHUYLFH FRQWUDFW
                       DFWLRQV E\  SHUFHQW DQG WKH FRVW RI WKRVH FRQWUDFW DFWLRQV
                       E\ PRUH WKDQ  PLOOLRQ

                       +RZHYHU VLJQLILFDQW ZRUNIRUFH FXWEDFNV DUH SURMHFWHG IRU
                       WKH LPPHGLDWH IXWXUH DQG FRXOG FUHDWH FRQGLWLRQV VLPLODU WR
                        ZKHQ WKH 3RVWDO 6HUYLFH LQFUHDVHG UHOLDQFH RQ
                       FRQWUDFWRUV :H QRWHG WKDW WKH SRVWPDVWHU JHQHUDO DQG WKH
                       PDQDJHPHQW FRPPLWWHH GLVVROYHG WKH &RQVXOWLQJ 6HUYLFHV
                       5HYLHZ &RPPLWWHH LQ 2FWREHU  6RPH RIILFLDOV
                       LQYROYHG ZLWK WKH FRPPLWWHH LQFOXGLQJ WKH YLFH SUHVLGHQW
                       3XUFKDVLQJ DQG 0DWHULDOV EHOLHYHG WKH FRPPLWWHH KDG
                       EHFRPH EXUHDXFUDWLFDOO\ FXPEHUVRPH DQG ZKLOH LW KDG
                       EHHQ LQLWLDOO\ VXFFHVVIXO LQ UHGXFLQJ VHUYLFH FRQWUDFWV
                       VXEVHTXHQW UHGXFWLRQV ZHUH GULYHQ SULPDULO\ E\ EXGJHW
                       FRQVWUDLQWV²QRW WKH FRPPLWWHH SURFHVV 0DQDJHPHQW LV
                       FXUUHQWO\ ZRUNLQJ WR HVWDEOLVK FRPSHQVDWLQJ FRQWUROV VXFK
                       DV XSGDWHG SROLFLHV DQG SURFHGXUHV EXW VXFK UHTXLUHG
                       SROLFLHV DQG SURFHGXUHV ZLOO QRW EH SXEOLVKHG XQWLO



                                          L
                               5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                        &$$5
 6HUYLFHV &RQWUDFWV


                         -DQXDU\  DW WKH HDUOLHVW &RQVHTXHQWO\ DV WKH 3RVWDO
                         6HUYLFH PDQDJHV LWV ZRUNIRUFH UHGXFWLRQ LW PD\ QRW KDYH
                         DGHTXDWH FRQWUROV WR SUHYHQW LW IURP DJDLQ EHFRPLQJ RYHUO\
                         UHOLDQW RQ FRQWUDFWHG VHUYLFHV

                         2XU DXGLW DOVR UHYHDOHG WKDW DIWHU WKH %RDUG RI *RYHUQRUV
                         DVVLJQHG DXGLW UHVSRQVLELOLW\ WR WKH 2,* SXUVXDQW WR WKH
                         ,QVSHFWRU *HQHUDO $FW WKH 3RVWDO 6HUYLFH VWRSSHG
                         FRQWUDFWLQJ IRU DXGLW VHUYLFHV

 6XPPDU\ RI              :H UHFRPPHQGHG WKDW WKH YLFH SUHVLGHQW 3XUFKDVLQJ DQG
 5HFRPPHQGDWLRQV         0DWHULDOV H[SHGLWH UHYLVLRQ RI SROLFLHV DQG SURFHGXUHV
                         FRQWUROOLQJ FRQWUDFWHG VHUYLFHV WR HQVXUH WKDW DV WKH 3RVWDO
                         6HUYLFH UHGXFHV LWV ZRUNIRUFH LW GRHV QRW DJDLQ EHFRPH
                         RYHUO\ UHOLDQW RQ FRQWUDFW VHUYLFHV

 6XPPDU\ RI              0DQDJHPHQW DJUHHG ZLWK RXU ILQGLQJ DQG UHFRPPHQGDWLRQ
 0DQDJHPHQW¶V            7KH\ DUH FXUUHQWO\ UHYLVLQJ DSSOLFDEOH SROLFLHV DQG
 &RPPHQWV                SURFHGXUHV 0DQDJHPHQW¶V FRPPHQWV LQ WKHLU HQWLUHW\ DUH
                         LQFOXGHG LQ WKH DSSHQGL[ RI WKLV UHSRUW

 2YHUDOO (YDOXDWLRQ RI   0DQDJHPHQW¶V FRPPHQWV ZHUH UHVSRQVLYH WR RXU ILQGLQJ
 0DQDJHPHQW¶V            DQG UHFRPPHQGDWLRQ :H EHOLHYH WKDW WKH DFWLRQV WDNHQ
 &RPPHQWV                DQG SODQQHG VKRXOG FRUUHFW WKH LVVXHV LGHQWLILHG LQ RXU
                         UHSRUW




                                            LL
                                 5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                        &$$5
 6HUYLFHV &RQWUDFWV



                              ,1752'8&7,21
 %DFNJURXQG            ,Q  WKH 3RVWDO 6HUYLFH UHVWUXFWXUHG DQG VLJQLILFDQWO\
                       UHGXFHG LWV ZRUNIRUFH $V D UHVXOW PDQ\ RQJRLQJ SURMHFWV
                       RU SURJUDPV ZHUH XQGHUVWDIIHG DQG WKH 3RVWDO 6HUYLFH ZDV
                       UHTXLUHG WR REWDLQ SHUVRQQHO XQGHU FRQWUDFW WR FRPSOHWH
                       XQILQLVKHG ZRUN 7KHVH FRQWUDFWHG VHUYLFHV LQYROYHG D ZLGH
                       YDULHW\ RI IXQFWLRQV LQFOXGLQJ

                       •   7HFKQLFDO VHUYLFHV OLNH FRPSXWHU VXSSRUW

                       •   $GPLQLVWUDWLYH VHUYLFHV OLNH FOHULFDO VXSSRUW

                       •   &RQWUDFWLQJ VXSSRUW

                       •   &RQVXOWLQJ

                       •   3URIHVVLRQDO VHUYLFHV OLNH DFFRXQWLQJ RU DXGLW VXSSRUW

                       ,Q 0DUFK  WKH SRVWPDVWHU JHQHUDO H[SUHVVHG FRQFHUQ
                       DERXW WKH JURZLQJ UHOLDQFH RQ FRQWUDFWRUV WR VXSSOHPHQW WKH
                       3RVWDO 6HUYLFH¶V ZRUNIRUFH DQG FRQVHTXHQWO\ HVWDEOLVKHG
                       WKH &RQVXOWLQJ 6HUYLFHV 5HYLHZ &RPPLWWHH WR HQVXUH DOO
                       VHUYLFH FRQWUDFWV ZHUH QHFHVVDU\ +H DOVR GLUHFWHG 3RVWDO
                       6HUYLFH RIILFLDOV WR VLJQLILFDQWO\ UHGXFH WKH QXPEHU RI
                       FRQWUDFWV 7KH &RQVXOWLQJ 6HUYLFHV 5HYLHZ &RPPLWWHH ZDV
                       GLVVROYHG LQ 2FWREHU 

                       ,Q $SULO  WKH %RDUG RI *RYHUQRUV UHPRYHG WKH DXGLW
                       IXQFWLRQ IURP WKH ,QVSHFWLRQ 6HUYLFH DQG PDGH WKH 2IILFH RI
                       ,QVSHFWRU *HQHUDO 2,* SXUVXDQW WR WKH ,QVSHFWRU *HQHUDO
                       $FW UHVSRQVLEOH IRU DOO 3RVWDO 6HUYLFH DXGLWV &RQVHTXHQWO\
                       3RVWDO 6HUYLFH DXGLWLQJ FRQWUDFWV ZHUH QR ORQJHU
                       DSSURSULDWH

 2EMHFWLYHV 6FRSH    7KH REMHFWLYHV RI RXU DXGLW ZHUH WR GHWHUPLQH ZKHWKHU WKH
 DQG 0HWKRGRORJ\       3RVWDO 6HUYLFH  UHGXFHG LWV UHOLDQFH RQ FRQWUDFWHG
                       VHUYLFHV WR VXSSOHPHQW LWV ZRUNIRUFH DQG  VWRSSHG
                       FRQWUDFWLQJ IRU 3RVWDO 6HUYLFH DXGLWV




                                          
                               5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                        &$$5
 6HUYLFHV &RQWUDFWV



                        ,Q RUGHU WR GHWHUPLQH LI WKH 3RVWDO 6HUYLFH UHGXFHG LWV
                        UHOLDQFH RQ FRQWUDFWHG VHUYLFHV ZH FRQGXFWHG D FRPSXWHU
                        DVVLVWHG GDWDEDVH VHDUFK IRU WKH SHULRG 0DUFK 
                        WKURXJK 0DUFK  WR LGHQWLI\ FRQWUDFWV FRGHG DV VHUYLFH
                        FRQWUDFWV :H WKHQ FRQGXFWHG D VWDWLVWLFDO VDPSOH WR
                        HOLPLQDWH LPSURSHUO\ FRGHG FRQWUDFWV SURMHFWHG UHVXOWV WR D
                        QDWLRQDO VWDWLVWLFDO SRSXODWLRQ DQG SHUIRUPHG D FRPSDUDWLYH
                        DQDO\VLV

                        7R GHWHUPLQH LI WKH 3RVWDO 6HUYLFH VWRSSHG FRQWUDFWLQJ IRU
                        DXGLWV ZH FRQGXFWHG D FRPSXWHU DVVLVWHG GDWDEDVH VHDUFK
                        IRU WKH SHULRG $SULO  WKURXJK 0DUFK  WR LGHQWLI\
                        FRQWUDFWV FRGHG DV DXGLW VHUYLFH FRQWUDFWV RU LQFOXGLQJ WKH
                        WHUP ³DXGLW´ LQ WKHLU GHVFULSWLYH ILHOG :H WKHQ DXGLWHG DOO
                        LGHQWLILHG ILOHV WR YHULI\ FRQWUDFW SXUSRVH

                        :H DOVR LQWHUYLHZHG 3RVWDO 6HUYLFH RIILFLDOV LQFOXGLQJ WKH
                        YLFH SUHVLGHQW 3XUFKDVLQJ DQG 0DWHULDOV DV ZHOO DV YDULRXV
                        FRQWUDFWRUV DQG SURFXUHPHQW SHUVRQQHO DQG UHYLHZHG
                        IHGHUDO SROLF\ LQFOXGLQJ WKH *HQHUDO $FFRXQWLQJ 2IILFH
                        6WDQGDUGV IRU ,QWHUQDO &RQWURO LQ WKH )HGHUDO *RYHUQPHQW
                        GDWHG 1RYHPEHU 

                        2XU DXGLW ZDV FRQGXFWHG IURP 0DUFK  WKURXJK
                        $XJXVW  LQ DFFRUGDQFH ZLWK JHQHUDOO\ DFFHSWHG
                        JRYHUQPHQW DXGLWLQJ VWDQGDUGV DQG LQFOXGHG VXFK WHVWV RI
                        LQWHUQDO FRQWUROV DV ZHUH FRQVLGHUHG QHFHVVDU\ XQGHU WKH
                        FLUFXPVWDQFHV :H GLVFXVVHG RXU FRQFOXVLRQV DQG
                        REVHUYDWLRQV ZLWK DSSURSULDWH PDQDJHPHQW RIILFLDOV DQG
                        LQFOXGHG WKHLU FRPPHQWV ZKHUH DSSURSULDWH

 3ULRU $XGLW &RYHUDJH   :H GLG QRW LGHQWLI\ DQ\ SULRU DXGLWV RU UHYLHZV UHODWHG WR WKH
                        REMHFWLYHV RI WKLV DXGLW




                                           
                                5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                                     &$$5
 6HUYLFHV &RQWUDFWV


                             $8',7 5(68/76
6HUYLFH &RQWUDFWV      2XU DXGLW UHYHDOHG WKH 3RVWDO 6HUYLFH VXFFHVVIXOO\ UHGXFHG
                       LWV UHOLDQFH RQ VHUYLFH FRQWUDFWV WR VXSSOHPHQW LWV ZRUNIRUFH
                       +RZHYHU ZH QRWHG WKDW ZRUNIRUFH FXWEDFNV DUH SURMHFWHG
                       IRU WKH LPPHGLDWH IXWXUH DQG FRXOG FUHDWH FRQGLWLRQV VLPLODU
                       WR  ZKHQ WKH 3RVWDO 6HUYLFH LQFUHDVHG UHOLDQFH RQ
                       FRQWUDFWLQJ

6HUYLFH &RQWUDFW       )RU WKH \HDU SHULRG HQGLQJ 0DUFK  WKH 3RVWDO
5HGXFWLRQ              6HUYLFH UHGXFHG WKH QXPEHU RI VHUYLFH FRQWUDFW DFWLRQV IURP
                        WR  D UHGXFWLRQ RI  SHUFHQW DQG WKH DPRXQW
                       VSHQW RQ WKRVH FRQWUDFW DFWLRQV IURP DERXW  ELOOLRQ WR
                          PLOOLRQ D UHGXFWLRQ RI  SHUFHQW 2XU DXGLW DOVR
                       UHYHDOHG WKDW WKH IROORZLQJ \HDU HQGLQJ 0DUFK  WKH
                       3RVWDO 6HUYLFH UHGXFHG WKH QXPEHU RI VHUYLFH FRQWUDFW
                       DFWLRQV IURP  WR  D UHGXFWLRQ RI  SHUFHQW DQG
                       WKH DPRXQW VSHQW RQ WKRVH FRQWUDFW DFWLRQV IURP
                          PLOOLRQ WR  PLOOLRQ DOVR D UHGXFWLRQ RI  SHUFHQW
                       6HH )LJXUH 

                             7RWDO 'ROODUV DQG $FWLRQV IRU WKH ,GHQWLILHG
                                         &RPPRGLW\ &RGHV &RQWUDFWV
                                                       (Dollars in millions)


                              Ç '        
                              Ç %

                              Ç #



                                                                   
                              Ç !

                              Ç 
                                                                                   
                                Ç'

                                Ç%

                                Ç#

                                Ç!
                                            #"$#               !'$'          !& (
                                  Ç

                                          HhpuÃ (('           HhpuÃ (((       HhpuÃ!



                                                                  7LPH 3HULRG
                                          HhpuÃ (((           HhpuÃ!       HhpuÃ!




                              1XPEHU RI VHUYLFH                )LJXUH 
                              FRQWUDFW DFWLRQV


:RUNIRUFH &XWEDFNV     :H QRWHG WKDW LQ 0DUFK  WKH 3RVWDO 6HUYLFH DQQRXQFHG
                       LW ZRXOG VLJQLILFDQWO\ FXW LWV ZRUNIRUFH 6SHFLILFDOO\ WKH
                       3RVWDO 6HUYLFH DQQRXQFHG LW DQWLFLSDWHV D  \HDU FXW RI
                        ZRUN \HDUV RU DQQXDO FXWV DYHUDJLQJ  ZRUN
                       \HDUV &RQVHTXHQWO\ WKH VDPH FRQGLWLRQV WKDW FDXVHG WKH
                       3RVWDO 6HUYLFH WR EHFRPH UHOLDQW RQ FRQWUDFWHG VHUYLFHV
                       LQ  ZLOO DJDLQ SUHVVXUH WKH 3RVWDO 6HUYLFH WR



                                          
                               5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                      &$$5
 6HUYLFHV &RQWUDFWV


                       VXSSOHPHQW LWV ZRUNIRUFH ZLWK FRQWUDFWRUV 'XULQJ RXU DXGLW
                       ZH QRWHG WKDW WKH SRVWPDVWHU JHQHUDO DQG WKH PDQDJHPHQW
                       FRPPLWWHH GLVVROYHG WKH &RQVXOWLQJ 6HUYLFHV 5HYLHZ
                       &RPPLWWHH LQ 2FWREHU  7KH SXUSRVH RI WKH FRPPLWWHH
                       ZDV WR HQVXUH DOO VHUYLFH FRQWUDFWV ZHUH QHFHVVDU\
                       +RZHYHU VRPH RIILFLDOV LQYROYHG ZLWK WKH FRPPLWWHH
                       LQFOXGLQJ WKH YLFH SUHVLGHQW 3XUFKDVLQJ DQG 0DWHULDOV
                       EHOLHYHG WKH FRPPLWWHH KDG EHFRPH EXUHDXFUDWLFDOO\
                       FXPEHUVRPH DQG ZKLOH LW KDG EHHQ LQLWLDOO\ VXFFHVVIXO LQ
                       UHGXFLQJ VHUYLFH FRQWUDFWV VXEVHTXHQW UHGXFWLRQV ZHUH
                       GULYHQ SULPDULO\ E\ EXGJHW FRQVWUDLQWV²QRW WKH FRPPLWWHH
                       SURFHVV 0DQDJHPHQW LV FXUUHQWO\ ZRUNLQJ WR HVWDEOLVK
                       FRPSHQVDWLQJ FRQWUROV VXFK DV XSGDWHG SROLFLHV DQG
                       SURFHGXUHV EXW VXFK UHTXLUHG SROLFLHV DQG SURFHGXUHV DUH
                       QRW FRPSOHWH )XUWKHU PDQDJHUV ZH WDONHG WR LQGLFDWHG WKH
                       GRFXPHQWV ZRXOG QRW EH SXEOLVKHG XQWLO -DQXDU\  DW
                       WKH HDUOLHVW &RQVHTXHQWO\ DV WKH 3RVWDO 6HUYLFH PDQDJHV
                       LWV ZRUNIRUFH UHGXFWLRQ LW PD\ QRW KDYH DGHTXDWH FRQWUROV WR
                       SUHYHQW LW IURP DJDLQ EHFRPLQJ RYHUO\ UHOLDQW RQ FRQWUDFWHG
                       VHUYLFHV

5HFRPPHQGDWLRQ         :H UHFRPPHQG WKDW WKH YLFH SUHVLGHQW 3XUFKDVLQJ DQG
                       0DWHULDOV

                        ([SHGLWH UHYLVLRQ DQG SXEOLFDWLRQ RI SROLFLHV DQG
                          SURFHGXUHV FRQWUROOLQJ FRQWUDFWHG VHUYLFHV WR HQVXUH
                          WKDW DV WKH 3RVWDO 6HUYLFH UHGXFHV LWV ZRUNIRUFH LW GRHV
                          QRW DJDLQ EHFRPH RYHUO\ UHOLDQW RQ FRQWUDFW VHUYLFHV

0DQDJHPHQW¶V           0DQDJHPHQW DJUHHG ZLWK RXU ILQGLQJ DQG UHFRPPHQGDWLRQ
&RPPHQWV               7KH\ VWDWHG WKDW DSSOLFDEOH SROLFLHV DUH FXUUHQWO\ XQGHU
                       UHYLVLRQ DQG ZLOO EH LVVXHG ZLWKLQ  GD\V DIWHU UHFHLSW RI
                       WKLV UHSRUW

(YDOXDWLRQ RI          0DQDJHPHQW¶V FRPPHQWV ZHUH UHVSRQVLYH WR RXU ILQGLQJ
0DQDJHPHQW¶V           DQG UHFRPPHQGDWLRQ :H EHOLHYH WKH DFWLRQV WDNHQ DQG
&RPPHQWV               SODQQHG VKRXOG FRUUHFW WKH LVVXHV LGHQWLILHG LQ RXU UHSRUW




                                          
                               5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                                       &$$5
 6HUYLFHV &RQWUDFWV


$XGLW 6HUYLFHV         2XU DXGLW UHYHDOHG WKDW VLQFH $SULO  ZKHQ WKH %RDUG RI
                       *RYHUQRUV UHPRYHG DXGLW UHVSRQVLELOLW\ IURP WKH 3RVWDO
                       ,QVSHFWLRQ 6HUYLFH DQG PDGH WKH 2,* UHVSRQVLEOH IRU DOO
                       3RVWDO 6HUYLFH DXGLWV DV UHTXLUHG E\ WKH ,QVSHFWRU *HQHUDO
                       $FW WKH 3RVWDO 6HUYLFH VWRSSHG FRQWUDFWLQJ IRU DXGLW
                       VHUYLFHV

                       2XU FRPSXWHU DVVLVWHG GDWDEDVH VHDUFK IURP $SULO 
                       XQWLO 0DUFK  IRU FRQWUDFWV FRGHG DV DXGLW VHUYLFHV RU
                       IRU FRQWUDFWV WKDW XVHG WKH ZRUG DXGLW LQ WKHLU GHVFULSWLYH
                       ILHOG UHYHDOHG  FRQWUDFW DFWLRQV 2XU DXGLW RI HDFK ILOH
                       UHYHDOHG QRQH ZHUH DFWXDOO\ IRU DXGLW VHUYLFHV )RU
                       H[DPSOH RQH ILOH UHIOHFWHG D FRQWUDFW WR LQVWUXFW HPSOR\HHV
                       KRZ WR SUHSDUH IRU DQ DXGLW $QRWKHU LQYROYHG GDWDEDVH
                       VWRUDJH IRU WKH LQVSHFWLRQ UHVXOWV RI IDFLOLWLHV LQVSHFWHG IRU
                       DVEHVWRV 6WLOO DQRWKHU LQYROYHG VRIWZDUH IRU D ORFDO
                       LQYHQWRU\ RI WHOHSKRQH FDOOLQJ FDUGV %HFDXVH ZH LGHQWLILHG
                       QR LQVWDQFHV RI WKH 3RVWDO 6HUYLFH FRQWUDFWLQJ IRU DXGLW
                       VHUYLFHV QR UHFRPPHQGDWLRQV DUH UHTXLUHG




                                          
                               5HVWULFWHG ,QIRUPDWLRQ
&RQVXOWLQJ DQG $XGLW                                      &$$5
 6HUYLFHV &RQWUDFWV



                       $33(1',; 0$1$*(0(17¶6 &200(176




                                            
                                 5HVWULFWHG ,QIRUPDWLRQ
